               REGU
           EAR     LA
         CL          T




   NU




                        OR
STATES




                          YC
                         OMMI S
 ED




                         SI
    IT




                         O
                    N
         UN




The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.

What should be reported:
• Contract and Procurement Irregularities       • Abuse of Authority
                                                                                               Semiannual Report                  to   C o n g r e ss
• Conflicts of Interest                         • Misuse of Government Credit Card             October 1, 2010 – March 31, 2011
• Theft and Misuse of Property                  • Time and Attendance Abuse
• Travel Fraud                                  • Misuse of Information Technology Resources
• Misconduct                                    • Program Mismanagement


Ways to Contact the OIG
                                  Call:
                                  OIG Hotline
                                  1-800-233-3497
                                  TDD: 1-800-270-2787
                                  7:00 a.m. – 4:00 p.m. (EST)
                                  After hours, please leave a message


                                  Submit:
                                  On-Line Form
                                  www.nrc.gov
                                  Click on Inspector General
                                  Click on OIG Hotline



                                  Write:
                                  U.S. Nuclear Regulatory Commission
                                  Office of the Inspector General
                                  Hotline Program, MS O5 E13
                                  11555 Rockville Pike
                                  Rockville, MD 20852-2738


NUREG-1415, Vol. 23, No. 2
April 2011
OIG VISION                                                           NRC OIG’s STRATEGIC GOALS
“We are agents of positive change striving for continuous            1. S
                                                                         trengthen NRC’s efforts to protect public health and safety
improvement in our agency’s management and program operations.”         and the environment.
                                                                     2. E nhance NRC’s efforts to increase security in response to an
                                                                        evolving threat environment.
NRC OIG MISSION
                                                                     3. I ncrease the economy, efficiency, and effectiveness with
NRC OIG’s mission is to (1) independently and objectively conduct       which NRC manages and exercises stewardship over its
and supervise audits and investigations relating to NRC’s programs      resources.
and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




Top Photo: Control Room. Photo by Louie Psihoyos
via Getty Images.

Bottom Photo: Cherenkov effect in the Reed
Research Reactor.

Center Photo: Pilgrim Nuclear Power Station
Photo courtesy of Entergy Nuclear.

Right Photo: Wolf Creek Nuclear Reactor
Photo courtesy of Wolf Creek Nuclear Operating Corp.
A Message From
The Inspector General
I am pleased to present this Semiannual Report to Congress on the activities
and accomplishments of the Nuclear Regulatory Commission (NRC) Office of
the Inspector General (OIG) from October 1, 2010, to March 31, 2011.

Our work reflects the legislative mandate of the Inspector General Act, which
is to identify and prevent fraud, waste, and abuse through the conduct of
audits and investigations relating to NRC programs and operations. The audits and investigations
highlighted in this report demonstrate our commitment to ensuring integrity and efficiency in
NRC’s programs and operations.

The NRC continues to perform its critical agency functions to ensure the safe and secure civilian
use of byproduct, source, and special nuclear materials. During this reporting period, the NRC OIG
continued its focus on critical agency operations to include NRC’s Implementation of 10 CFR Part 21:
reporting of defects and noncompliance, NRC’s non-concurrence process, and the Inspector
General’s evaluation of the NRC’s most serious management and performance challenges. Our
efforts to work with the NRC to identify risks and vulnerabilities early on will afford the agency
the opportunity to take any necessary corrective action.

During this semiannual period, we issued nine audit reports. As a result of this work, OIG made
a number of recommendations to improve the effective and efficient operation of NRC’s safety,
security, and corporate management programs. OIG also opened 32 investigations and completed
12 cases. Six of the open cases were referred to the Department of Justice, and 25
allegations were referred to NRC management for action.

The NRC OIG remains committed to the integrity, efficiency, and effectiveness of NRC programs
and operations, and our audits, investigations, and other activities highlighted in the report
demonstrate this ongoing commitment. Those efforts were recently recognized with the granting
of an Award for Excellence by the Council of the Inspectors General on Integrity and Efficiency to
an audit team for its report on NRC’s Oversight of Construction at Nuclear Facilities. I would
like to acknowledge our auditors, investigators, and support staff for their superior work and
commitment to the mission of our office.

Finally, the success of the NRC OIG would not be possible without the collaborative efforts between
my staff and agency managers to address OIG findings and to implement the corrective actions
recommended by my office. I wish to thank them for their dedication and support, and I look
forward to their continued cooperation as we work together to ensure the integrity of agency
operations.




Hubert T. Bell
Inspector General



                                                              October 1, 2010–March 31, 2011          i
                                                                 Nuclear reactor vessel head replacement.   Photo courtesy Areva




ii   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
Contents
  Highlights          .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v

  Overview of the NRC and the OIG  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .1
  	     NRC’s Mission .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .1

  	     OIG History, Mission, and Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .2

  		         OIG History .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .2

  		         OIG Mission and Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .3

  OIG Programs and Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .4
  	     Audit Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .4

  	     Investigative Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .5

  	     General Counsel Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .6

  		         Regulatory Review .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .6

  	     Other Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .9

  		         NRC OIG Receives CIGIE Award for Excellence  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .9

  Management and Performance Challenges  .                                               .  .  .  .  .  .  .  .  .  .  .  .  .  . 11

  Audits 	 .     .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 12

  	     Audit Summaries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 12

  	     Audits in Progress  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 22

  Investigations  .             .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28

  	     Investigative Case Summaries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28

  Summary of OIG Accomplishments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33
  	     Investigative Statistics  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33

  	     Audit Listings .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 35

  	     Audit Resolution Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37

  Abbreviations and Acronyms  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41
  Reporting Requirements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 42
  Appendix  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43



                                                                                            October 1, 2010–March 31, 2011                 iii
                                                                 Cobalt pool technician on bridge.   Photo Daniel Rogall




iv   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
Highlights
The following two sections highlight selected audits and investigations
completed during this reporting period. More detailed summaries appear in
subsequent sections of this report.

AUDITS
•	   The Reports Consolidation Act of 2000 requires the Inspector General (IG)
     of each Federal agency to summarize annually what he or she considers to
     be the most serious management and performance challenges facing the
     agency and to assess the agency’s progress in addressing those challenges.
     In accordance with the act, the IG at the U.S. Nuclear Regulatory Commission
     (NRC) updated what he considers to be the most serious management and
     performance challenges facing NRC as of October 1, 2010. The IG evaluated
     the overall work of the Office of the Inspector General (OIG), the OIG staff’s
     general knowledge of agency operations, and other relevant information
     to develop and update his list of management and performance challenges.
     As part of the evaluation, OIG staff sought input from NRC’s Chairman,
     Commissioners, and management to obtain their views on what challenges
     the agency is facing and what efforts the agency has taken to address previ-
     ously identified management challenges.

•	   The non-concurrence process is part of the agency’s Differing Views
     Program, and is managed by the Office of Enforcement. NRC’s implemen-
     tation of an agencywide non-concurrence process supports the agency’s
     goal of promoting an open collaborative work environment, which values
     collaborative decisionmaking, diverse views, unbiased evaluations, and
     honest feedback on how decisions are made. The non-concurrence process
     was developed to promote discussion and consideration of differing views
     on draft documents, provide a non-concurrence option for individuals with
     concerns who had a role in creating or reviewing draft documents, and
     provide a uniform approach for processing non-concurrences. The audit
     objective was to determine if the agency’s non-concurrence process is oper-
     ating as intended.

•	   On December 17, 2002, the President signed the E-Government Act of 2002,
     which included the Federal Information Security Management Act (FISMA)
     of 2002. FISMA outlines the information security management requirements
     for agencies, which include an annual independent evaluation of an agen-
     cy’s information security program and practices to determine their effective-
     ness. This evaluation must include testing the effectiveness of information
     security policies, procedures, and practices for a representative subset of the
     agency’s information systems. FISMA requires the annual evaluation to be
     performed by the Inspector General or by an independent external auditor.
     Office of Management and Budget (OMB) memorandum M-10-15, FY 2010
     Reporting Instructions for the Federal Information Security Management Act



                                                                October 1, 2010–March 31, 2011   v
                             and Agency Privacy Management, dated April 21, 2010, requires the agency’s
                             OIG to report their responses to OMB’s annual FISMA reporting questions for
                             OIGs via an automated collection tool. The objective of this review was to
                             perform an independent evaluation of the NRC’s implementation of FISMA
                             for FY 2010.

                        •	   The Chief Financial Officers Act of 1990, as amended, requires the Inspector
                             General or an independent external auditor, as determined by the Inspector
                             General, to annually audit NRC’s financial statements to determine whether
                             the agency’s financial statements are free of material misstatement. The
                             audit includes examining, on a test basis, evidence supporting the amounts
                             and disclosures in the financial statements. It also includes assessing the
                             accounting principles used and significant estimates made by management
                             as well as evaluating the overall financial statement presentation. In addi-
                             tion, the audit evaluates the effectiveness of internal controls over financial
                             reporting and the agency’s compliance with laws and regulations.

                        •	   NRC endeavors to protect the public health and safety and the environ-
                             ment through the regulation of the 104 operating nuclear power plants in
                             the United States. The Energy Reorganization Act of 1974, as amended,
                             Section 206, Noncompliance, provides the statutory basis for NRC guidance
                             and regulations that pertain to reporting component defects in operating
                             reactors. Specifically, Section 206 requires licensees that operate nuclear
                             power plants to notify NRC of defects in basic components that could cause
                             a substantial safety hazard. The audit objective was to determine if NRC’s
                             implementation of Federal regulations requiring reactor licensees to report
                             defects contained in installed equipment is meeting the intent of the Energy
                             Reorganization Act of 1974, as amended, Section 206, Noncompliance.

                        •	   Homeland Security Presidential Directive 12 (HSPD-12) states that it is
                             national policy to “enhance security, increase E-Government efficiency,
                             reduce identity fraud, and protect personal privacy” by establishing common
                             identification standards for all Federal Government employees and contrac-
                             tors. HSPD-12 directs executive branch agencies to use standardized iden-
                             tification to gain physical access to Federal facilities and logical access to
                             Federal information systems. NRC has taken steps to meet its HSPD-12
                             requirements by issuing Personal Identity Verification (PIV) cards and devel-
                             oping data systems to support use of PIV cards. Use of PIV cards is a basic
                             element of a broader Government initiative called Identity, Credential, and
                             Access Management (ICAM), which aims to carry out specific provisions as
                             well as the full intent of HSPD-12. ICAM programs have two main areas of
                             operations: physical access control systems, which provide physical security
                             at Federal facilities, and logical access control systems, which address the
                             security of Federal computer networks. The audit objective was to assess
                             whether NRC has effectively implemented its ICAM programs.




vi   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
INV ESTI G AT I O N S
•	   OIG conducted an investigation based on an allegation submitted by a
     private citizen to NRC under Title 10 Code of Federal Regulations (CFR)
     Section 2.206, which permits any person to file a petition requesting that
     the NRC Commission take enforcement-related action, i.e., to modify,
     suspend, or revoke a license or to take other appropriate action. The
     2.206 petition must be in writing and provide the grounds for taking the
     proposed action.

•	   OIG conducted an investigation based on an allegation from several stake-
     holders. The stakeholders alleged that in implementing a pilot program
     performance-based regulatory standard for fire protection in accordance
     with 10 CFR 50.48(c) at Shearon Harris nuclear power plant the NRC is
     directing licensees to use fire models that have not been validated and
     verified as required by National Fire Protection Association Standard 805.
     They further alleged that a former NRC employee was wrongfully
     terminated for speaking out against the performance-based standard
     for fire protection.

•	   OIG conducted an investigation into an allegation that the NRC project
     manager for two of NRC’s three Safeguards Information Local Area
     Network and Electronic Safe System (SLES) contracts was requesting
     out-of-scope records management work from one of the SLES contractors
     and that the NRC project manager directed contractor staff to enter
     inaccurate information into SLES database fields.

•	   OIG conducted an investigation to determine whether two NRC BlackBerry
     devices were compromised during an official trip to a foreign country by
     two NRC staff members.




                                                              October 1, 2010–March 31, 2011   vii
                                                                   Reactor cooling tower.   Photo Shutterstock



viii   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
O v e rv i e w             of the              NRC           and the                 OIG
NRC’ S M I SSI O N
NRC was formed in 1975, in accordance with the Energy Reorganization Act of
1974, to regulate the various commercial and institutional uses of nuclear mate-
rials. The agency succeeded the Atomic Energy Commission, which previously
had responsibility for both developing and regulating nuclear activities.

NRC’s mission is to regulate the Nation’s civilian use of byproduct, source, and
special nuclear materials to ensure adequate protection of public health and
safety, promote the common defense and security, and protect the environment.
NRC’s regulatory mission covers three main areas:

• 	Reactors - Commercial reactors that generate
    electric power and research and test reactors used
    for research, testing, and training.

•	    aterials - Uses of nuclear materials in medical,
     M
     industrial, and academic settings and facilities
     that produce nuclear fuel.

•	    aste - Transportation, storage, and disposal
     W
     of nuclear materials and waste, and decommis-
     sioning of nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three
principal regulatory functions: (1) establish standards and regulations, (2) issue
licenses for nuclear facilities and users of nuclear materials, and (3) inspect facili-
ties and users of nuclear materials to ensure compliance with the requirements.
These regulatory functions relate both to nuclear power plants and other uses
of nuclear materials – like nuclear medicine programs at hospitals, academic
activities at educational institutions, research, and such industrial applications as
gauges and testing equipment.

The NRC maintains a current Web site and a public document room at NRC
headquarters in Rockville, Maryland, and holds public hearings, public meetings
in local areas and at NRC offices, and discussions with individuals and
organizations.

	




                                                                  October 1, 2010–March 31, 2011   1
                        O I G H I STO RY, M IS S IO N , a nd G oa l s
                        OIG History
                        In the 1970s, Government scandals, oil shortages, and stories of corrup-
                        tion covered by newspapers, television, and radio stations took a toll on the
                        American public’s faith in its Government. The U.S. Congress knew it had to
                        take action to restore the public’s trust. It had to increase oversight of Federal
                        programs and operations. It had to create a mechanism to evaluate the effec-
                        tiveness of Government programs. And, it had to provide an independent voice
                        for economy, efficiency, and effectiveness within the Federal Government that
                        would earn and maintain the trust of the American people.

                        In response, Congress passed the landmark legislation known as the Inspector
                        General Act (IG Act), which President Jimmy Carter signed into law in 1978. The
                        IG Act created independent Inspectors General, who would protect the integ-
                        rity of Government; improve program efficiency and effectiveness; prevent and
                        detect fraud, waste, and abuse in Federal agencies; and keep agency heads,
                        Congress, and the American people fully and currently informed of the findings
                        of IG work.

                        Today, the IG concept is a proven success. The IGs continue to deliver significant
                        benefits to our Nation. Thanks to IG audits and investigations, billions of dollars
                        have been returned to the Federal Government or have been better spent based
                        on recommendations identified through those audits and investigations. IG
                        investigations have also contributed to the prosecution of thousands of wrong-
                        doers. In addition, the IG concepts of good governance, accountability, and
                        monetary recovery encourages foreign governments to seek advice from IGs,
                        with the goal of replicating the basic IG principles in their own governments.

                        	

                        	




2   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
OIG Mission and Goals
NRC’s OIG was established as a statutory entity on April 15, 1989, in accordance
with the 1988 amendment to the IG Act. NRC OIG’s mission is to (1) indepen-
dently and objectively conduct and supervise audits and investigations relating
to NRC programs and operations; (2) prevent and detect fraud, waste, and
abuse; and (3) promote economy, efficiency, and effectiveness in NRC programs
and operations.

OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing
this commitment. Such planning ensures that audit and investigative resources
are used effectively. To that end, OIG developed a strategic plan1 that includes
the major challenges and critical risk areas facing NRC.

The plan identifies the priorities of OIG and establishes a shared set of expecta-
tions regarding the goals OIG expects to achieve and the strategies that will be
employed to do so. OIG’s Fiscal Years 2008-2013 Strategic Plan features three
goals, which generally align with NRC’s mission and goals:

	      1. Strengthen NRC’s efforts to protect public health and safety and the
           environment.

       2.	 Enhance NRC’s efforts to increase security in response to an evolving
           threat environment.

       3. Increase the economy, efficiency, and effectiveness with which NRC
           manages and exercises stewardship over its resources.




1
    OIG’s current strategic plan covers the period FY 2008 through FY 2013.




                                                                              October 1, 2010–March 31, 2011   3
OI G P r o g r am s                              and            A c ti v iti e s
                        A u dit Progr a m
                        The OIG Audit Program focuses on management and financial operations;
                        economy or efficiency with which an organization, program, or function is
                        managed; and whether the programs achieve intended results. OIG auditors
                        assess the degree to which an organization complies with laws, regulations, and
                        internal policies in carrying out programs, and they test program effectiveness
                        as well as the accuracy and reliability of financial statements. The overall
                        objective of an audit is to identify ways to enhance agency operations and
                        promote greater economy and efficiency. Audits comprise four phases:

                        •	    urvey phase - An initial phase of the audit process is used to gather
                             S
                             information, without detailed verification, on the agency’s organization,
                             programs, activities, and functions. An assessment of vulnerable areas
                             determines whether further review is needed.

                        •	    erification phase - Detailed information is obtained to verify findings and
                             V
                             support conclusions and recommendations.

                        •	    eporting phase - The auditors present the information, findings, conclu-
                             R
                             sions, and recommendations that are supported by the evidence gathered
                             during the survey and verification phases. Exit conferences are held with
                             management officials to obtain their views on issues in the draft audit
                             report. Comments from the exit conferences are presented in the published
                             audit report, as appropriate. Formal written comments are included in their
                             entirety as an appendix in the published audit report.

                        •	    esolution phase - Positive change results from the resolution process
                             R
                             in which management takes action to improve operations based on the
                             recommendations in the published audit report. Management actions
                             are monitored until final action is taken on all recommendations. When
                             management and OIG cannot agree on the actions needed to correct a
                             problem identified in an audit report, the issue can be taken to the NRC
                             Chairman for resolution.

                        Each September, OIG issues an Annual Plan that summarizes the audits planned
                        for the coming fiscal year. Unanticipated high priority issues may arise that
                        generate audits not listed in the Annual Plan. OIG audit staff continually
                        monitor specific issues areas to strengthen OIG’s internal coordination and
                        overall planning process. Under the OIG Issue Area Monitor (IAM) program,
                        staff designated as IAMs are assigned responsibility for keeping abreast of major
                        agency programs and activities. The broad IAM areas address nuclear reactors,
                        nuclear materials, nuclear waste, international programs, security, information
                        management, and financial management and administrative programs.




4   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
INV ESTI G AT I VE P RO G R AM
OIG’s responsibility for detecting and preventing fraud, waste, and abuse within
NRC includes investigating possible violations of criminal statutes relating to
NRC programs and activities, investigating misconduct by NRC employees, inter-
facing with the Department of Justice on OIG-related criminal matters, and
coordinating investigations and other OIG initiatives with Federal, State, and
local investigative agencies and other OIGs. Investigations may be initiated as a
result of allegations or referrals from private citizens; licensee employees; NRC
employees; Congress; other Federal, State, and local law enforcement agencies;
OIG audits; the OIG Hotline; and IG initiatives directed at areas bearing a high
potential for fraud, waste, and abuse.

Because NRC’s mission is to protect the health and safety of the public, OIG’s
Investigative Program directs much of its resources and attention on investiga-
tions of alleged conduct by NRC staff that could adversely impact matters related
to health and safety. These investigations may address allegations of:

•	    isconduct by high-ranking NRC officials and other NRC officials, such as
     M
     managers and inspectors, whose positions directly impact public health and
     safety.

•	   F ailure by NRC management to ensure that health and safety matters are
      appropriately addressed.

•	   F ailure by NRC to appropriately transact nuclear regulation publicly and
      candidly and to openly seek and consider the public’s input during the
      regulatory process.

•	    onflicts of interest involving NRC employees and NRC contractors and
     C
     licensees, including such matters as promises of future employment for
     favorable or inappropriate treatment and the acceptance of gratuities.

•	   F raud in the NRC procurement program involving contractors violating
      Government contracting laws and rules.

OIG has also implemented a series of proactive initiatives designed to identify
specific high-risk areas that are most vulnerable to fraud, waste, and abuse.
A primary focus is electronic-related fraud in the business environment. OIG
is committed to improving the security of this constantly changing electronic
business environment by investigating unauthorized intrusions and computer-
related fraud, and by conducting computer forensic examinations. Other proac-
tive initiatives focus on determining instances of procurement fraud, theft of
property, Government credit card abuse, and fraud in Federal programs.




                                                                October 1, 2010–March 31, 2011   5
                        G E N E R AL C O U N S EL A CT IV IT IE S
                        Regulatory Review
                        Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG
                        reviews existing and proposed legislation, regulations, policy, and implementing
                        management directives (MD), and makes recommendations to the agency
                        concerning their impact on the economy and efficiency of agency programs and
                        operations.

                        Regulatory review is intended to provide assistance and guidance to the agency
                        prior to the concurrence process so as to avoid formal implementation of
                        potentially flawed documents. OIG does not concur or object to the agency
                        actions reflected in the regulatory documents, but rather offers comments and
                        requests responsive action within specified timeframes.

                        Comments provided in regulatory review reflect an objective analysis of the
                        language of proposed agency statutes, directives, regulations, and policies
                        resulting from OIG insights from audits, investigations, and historical data and
                        experience with agency programs. OIG review is structured so as to identify
                        vulnerabilities and offer additional or alternative choices.

                        From October 1, 2010, through March 31, 2011, OIG reviewed more than 250
                        agency documents, including approximately 185 Commission papers (SECYs);
                        Staff Requirements Memoranda; and 75 Federal Register Notices, regulatory
                        actions, and statutes.

                        To effectively track the agency’s response to OIG regulatory review, comments
                        include a request for written replies within 90 days, with either a substantive
                        reply or status of issues raised by OIG.

                        During this reporting period, the OIG commented on several management
                        directives related to agency communications and two security related directives.
                        In addition, OIG provided substantive observations on the agency’s strategic
                        plan. Also, the agency provided responsive comments for eight matters previ-
                        ously reviewed by OIG. Significant comments and suggestions provided by OIG
                        in our regulatory reviews during this period are summarized below.

                             Management Directives

                             Draft MD and Handbook 3.5, Attendance at NRC Staff-Sponsored Meetings,
                             provides guidance so that members of the public have the opportunity to
                             enhance their understanding of the agency’s regulatory process through
                             attendance at, and/or participation in, the agency’s public meetings with
                             applicants, licensees, and others. It also provides guidance so that all public
                             meetings are noticed in a timely manner to inform interested stakeholders




6   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
about NRC’s meetings so as to balance the NRC’s objective of openness and the
public’s interest in attending or participating in NRC meetings against the need
for the NRC staff to exercise its regulatory and safety responsibilities without
undue administrative burden. The draft document was well organized and
partially responsive to audit report OIG-10-A-14, NRC’s Process for Closed Meet-
ings. The audit report recommended clearer definitions and clarification to
ensure that notices and summaries are available in the agency’s ADAMS data-
base. The draft directive appeared to resolve the first issue, but the public avail-
ability of notices and summaries was not adequately addressed. In addition, the
OIG commentary identified incorrect references and the need for consistency in
directions regarding notices to the public.

MD and Handbook 3.7, NUREG Series Publications, was revised entirely to
consolidate content of existing MD 3.7, Unclassified Staff Publications in the
NUREG Series, and 3.8, Unclassified Contractor and Grantee Publications in the
NUREG Series, and to establish a new, simplified designator system for NUREG-
series publications. The revision was also intended to identify and clarify the
responsibilities of NRC managers, staff, and project officers and add tips for
writing in plain language. The OIG review found the revision to be generally
well constructed. OIG comments reflected concern with regard to consistency
in identifying the Office of the General Counsel (OGC) role in publications and
suggested that the procedures for compiling and publishing proceedings be
cross-referenced.

MD 3.11, Conferences and Conference Proceedings, was revised with the speci-
fied goals of identifying appropriate responsible organizations; incorporating
new procurement procedures; and providing information about proprietary
and copyrighted materials, revised forms, and exhibits to illustrate appropriate
formats for individual papers in a conference proceeding. The revision achieved
these objectives in a comprehensive fashion. Our comments for this document
identified the need for consistent direction on the role of OGC and correction of
listed references.

Draft MD 3.12, Handling and Disposition of Foreign Documents and Transla-
tions, was intended to clarify and update the policies and procedures appli-
cable to NRC’s translations program. The OIG review found that MD 3.12 and
its associated handbook do not provide adequate guidance to NRC personnel
who procure translation services. OIG provided observations from our own staff
experience to highlight the need for more specificity in the guidance provided.
The OIG commentary noted that at the time of an OIG-observed NRC inspec-
tion in Japan there was confusion on how NRC would use interpreters. The
two Japanese interpreters serving the inspection team were used to sharing the
interpretation duties between them. That is, one would interpret for an hour
while the other took a break and then they would switch roles—and do this
all day. This is not how NRC inspections work. The team of inspectors needed




                                                              October 1, 2010–March 31, 2011   7
                        both interpreters to be available to work the full day but this was not what the
                        interpreters expected or wanted to do. In addition, OIG related that MD 3.12
                        may not be the best place to provide guidance for procurement of interpretive
                        services, but it may be beneficial to ensure guidance or points of contact to get
                        guidance are identified in MD 3.12. Further, OIG commented that for inter-
                        pretation services for overseas inspections, guidance should be added on the
                        amount of time these services typically take so that this time can be taken into
                        account when scheduling overseas inspections.

                        Draft MD and Handbook 3.15, Multimedia Services, was formerly titled Audio-
                        visual and Photographic Services. The draft update was found to be complete
                        and detailed. OIG comments corrected references and title names.

                        Communication Issues

                        The draft agency implementing document for Executive Order 13166,
                        Limited English Proficiency (LEP) Plan, was generally comprehensive and well
                        constructed. Our two primary comments identified an alternative definition of
                        “eligible LEP persons” and added a section to address law enforcement
                        activities and language services needed for this activity.

                        The purpose of draft MD 12.5, NRC Computer Security Program, is to provide
                        guidance to appropriate security measures to protect NRC information and
                        information systems. This includes ensuring that security measures provide
                        the appropriate level of protection and reliable access to NRC information and
                        information systems by authorized individuals only; the NRC automated infor-
                        mation security program complies with the requirements of the FISMA, OMB
                        policy guidance, and related policies, procedures, standards, and guidelines,
                        including information security standards and guidelines for national security
                        systems; and senior agency officials provide information security for the infor-
                        mation and information systems that support the operations and assets under
                        their control. The OIG comments related additional details on the role and
                        responsibilities, evidence collection and retention and access authority of the
                        Inspector General, as well as agency reporting requirements to the OIG.

                        Draft MD 12.3, NRC Personnel Security Program, is intended to provide guid-
                        ance to assure that NRC employees, consultants, contractors, and licensees are
                        reliable and trustworthy to have access to NRC facilities, classified information,
                        sensitive NRC information and equipment, nuclear power facilities, and special
                        nuclear material. In addition to minor language changes, review of the revised
                        directive and handbook resulted in comments suggesting that consistent align-
                        ment in the organizational responsibilities sections would add additional clarity.

                        NRC Strategic Plan

                        The OIG comments on the draft strategic plan focused generally on two
                        matters: the failure to address FY 2011 Inspector General Management and
                        Performance Challenge, “Administration of all aspects of financial manage-



8   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
  ment and procurement,” and that removal of references to the construction
  of a high-level waste facility appeared to be premature in view of the ongoing
  legal disputes involving this matter. In addition, OIG related that the plan did
  not appear to address the loss of retiring employees who possess fungible skills
  and the capability of remaining staff to address issues associated with legacy
  facilities that are undergoing relicensing.




OTHER A C T I VI T I E S
NRC OIG Receives CIGIE Award for Excellence
In 2010, the Council of the Inspectors General on
Integrity and Efficiency recognized an OIG audit team
with the prestigious CIGIE Award for Excellence. The
audit team was recognized for exceptional perfor-
mance in identifying opportunities for improvement
in NRC’s construction inspection program for civilian-
use nuclear reactor and fuel cycle facilities built in the
United States. The team consisted of Sherri Miotla,
Team Leader; Catherine Colleli, Audit Manager;
Eric Rivera, Audit Manager; and Tim Wilson, Senior
Analyst.
                                                                 OIG receives CIGIE Award. Pictured left to right are Eric
In recent years, there has been renewed worldwide            Rivera, Audit Manager; Sherri A. Miotla, Team Leader;
interest in constructing nuclear facilities. NRC is respon-  Steven E. Zane, Deputy Assistant Inspector General for
                                                             Audits; Timothy Wilson, Senior Analyst; Hubert T. Bell,
sible for licensing and inspecting construction activities   Inspector General; Catherine M. Colleli, Audit Manager;
of new civilian-use nuclear reactor and fuel cycle facili-   David C. Lee, Deputy Inspector General; and Stephen D.
ties built in the United States. The nuclear industry is     Dingbaum, Assistant Inspector General for Audits.
responsible for ensuring that the design and construc-
tion of these facilities are in accordance with applicable NRC regulations.

During the 1970s and 1980s, NRC and its predecessor, the Atomic Energy
Commission, oversaw the industry’s construction of the first generation of U.S.
nuclear plants. Several of the construction projects experienced significant
problems related to design and construction quality resulting in the cancel-
lation of several plants in various stages of construction. Congress, at that
time, questioned NRC’s ability to provide effective regulatory oversight of the
construction activities and directed the agency to study ways to improve quality
in the construction of future plants. In response to the congressional directive,
NRC issued, in May 1984, NUREG-1055, Improving Quality and the Assurance
of Quality in the Design and Construction of Nuclear Power Plants: A Report to
Congress. The report concluded that NRC’s inspection practices were inadequate
and offered several recommendations to improve NRC programs.

In 2006, NRC reorganized in response to the anticipated new reactor licensing
and construction inspection workload. The Office of New Reactors was created
with the primary responsibility for developing the agency’s construction


                                                                     October 1, 2010–March 31, 2011                   9
                       inspection program and its associated program guidance. This program was
                       designed to ensure that plants are built in accordance with the approved design
                       and licensing requirements and will operate in compliance with NRC regulations.

                       The audit team found2 that NRC’s process for identifying construction lessons
                       learned contains some, but not all, of the key elements of a successful program.
                       While NRC’s guidance document lays out the foundation for gathering lessons
                       learned data related to construction, it does not comprehensively contain all the
                       key elements identified as important to the success of an organization’s lessons
                       learned program. The agency falls short in formally identifying a lessons learned
                       definition, collection and implementation procedures, as well as appropriate
                       resources. NRC’s culture regarding its construction lessons learned process also
                       tends to be informal. More specifically,

                       • The agency has not formally identified a lessons learned definition, presuming
                          that the definition is commonly understood. Yet, all have different under-
                         standings and expectations for what it might include with most believing that
                         lessons learned are negative events and not allowing for the possibility of
                         including a positive event.

                       • While the agency has incorporated guidance for maintaining and improving
                          its lessons learned process, it lacks formal criteria to help identify which issues
                          must be brought forward for management consideration.

                       • The agency does not have a procedure that documents how lessons learned
                          are implemented through the Construction Inspection Program.

                       • The agency does not identify the level of expertise required for staff
                          involvement in the construction lessons learned evaluation process.

                       As such, the lack of well-developed guidance could jeopardize the construction
                       inspection program’s goal to prevent recurrences of construction related
                       problems and may compromise the public’s confidence in NRC’s ability to
                       effectively oversee new nuclear construction projects.

                       Moreover, the successful implementation of the construction inspection program
                       is closely tied to the level of experience and qualifications of the agency’s
                       inspectors. However, a majority of NRC’s construction inspection staff will have
                       little, if any, actual experience overseeing construction activities. For fiscal year
                       2009, the agency budgeted $243.5 million, including 819 full-time equivalent
                       staff, for new reactor activities to include the construction inspection program.
                       These staff members provide varying amounts of support to the program on an
                       ongoing basis.



                        2
                            Audit findings described were presented in OIG-09-A-17, Audit of NRC’s Oversight of
                             Construction at New Nuclear Facilities (September 29, 2009).



10   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
Without fully developed guidance, agency inspection staff could miss
opportunities to identify and analyze potentially significant negative and
positive lessons learned associated with construction activities. This becomes
especially important in NRC’s current regulatory environment, which has seen no
new domestic nuclear power plant construction in more than 20 years.

The audit team made a comprehensive recommendation to enhance the agen-
cy’s construction inspection program and its associated guidance to include key
elements identified as important to the success of an organization’s lessons
learned program. The agency agreed with the recommendation and is imple-
menting corrective actions to improve its program for the construction of
civilian-use nuclear reactor and fuel cycle facilities built in the United States.




Management                        and        P e r f o r ma n c e
Challenges
             Most Serious Management and Performance Challenges
                  Facing the Nuclear Regulatory Commission *
                              as of October 1, 2010
                     (as identified by the Inspector General)

  Challenge 1	 Protection of nuclear material used for civilian purposes.

  Challenge 2	Managing information to balance security with openness and
               accountability.

  Challenge 3	Ability to modify regulatory processes to meet a changing
               environment, to include the licensing of new nuclear facilities.

  Challenge 4	 Oversight of radiological waste.

  Challenge 5	Implementation of information technology and information
               security measures.

  Challenge 6	Administration of all aspects of financial management and
               procurement.

  Challenge 7	 Managing human capital.


  *The most serious management and performance challenges are not ranked in
    any order of importance.




                                                              October 1, 2010–March 31, 2011   11
A u d it s
                                To help the agency improve its effectiveness and efficiency during this period,
                                OIG completed nine financial and performance audits or evaluations, six of
                                which are summarized here that resulted in numerous recommendations to NRC
                                management.

                                AUD I T SUMMA R IE S
                                Audit of NRC’s Non-Concurrence Process
                                OIG Strategic Goal: Safety
             Non-Concurrence Process
                                                       The non-concurrence process is part of the agency’s
                                                       Differing Views Program, and is managed by the Office
                                                       of Enforcement. NRC’s implementation of an agency-
                                                       wide non-concurrence process supports the agency’s goal
                                                       of promoting an open collaborative work environment,
                                                       which values collaborative decisionmaking, diverse views,
                                                       unbiased evaluations, and honest feedback on how deci-
                                                       sions are made. The non-concurrence process was devel-
                                                       oped to promote discussion and consideration of differing
                                                       views on draft documents, provide a non-concurrence
                                                       option for individuals with concerns who had a role in
                                                       creating or reviewing draft documents, and provide a
                                                       uniform approach for processing non-concurrences.

                                                         The Executive Director for Operations issued draft MD
                                                         and Handbook 10.158, NRC Non-Concurrence Process,
                                                         via Yellow Announcement on November 29, 2006. The
                                                         Yellow Announcement directed staff to follow the
Source: MD 10.158, Appendix A
                                requirements in the interim directive and handbook, which were to supersede
                                any existing office-level non-concurrence procedures. At the time of its 2006
                                issuance, MD 10.158 was expected to remain in interim status for approximately
                                1 year to gain operating experience to make informed revisions to the directive
                                before its finalization. Finalization of MD 10.158 was further prolonged after
                                the initial 1-year period to gain additional operating experience. Currently, MD
                                10.158 remains in interim status and is scheduled to be finalized in June 2013.

                                The audit objective was to determine if the agency’s non-concurrence process is
                                operating as intended.

                                Audit Results:
                                The agency’s non-concurrence process is a valuable tool in facilitating discussion
                                of differing views between staff and management and is generally implemented
                                as it was intended. However, OIG identified opportunities for improvement
                                within the non-concurrence process in the following two areas:

                                •	   Agency guidance and training.


12     N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
•	    Capture and review of operating experience.

Agency Guidance and Training on Non-Concurrence Process Can Be Improved

Although the agency provides guidance and training on the non-concurrence
process, the guidance is incomplete and the training is limited. Providing properly
implemented guidance and training that effectively communicate policies, objec-
tives, responsibilities, authorities, requirements, and information to employees are
essential human capital practices that help to ensure employees have the knowl-
edge and skills to perform their job and accomplish the agency mission. However,
agency guidance on the non-concurrence process is imprecise and remains in
prolonged interim status. Furthermore, interviews with staff and managers who
have been involved in the process revealed that 70 percent did not understand
their respective rights, roles, and responsibilities under the process as compared
to that described in MD 10.158. In addition, 51 percent exhibited a misunder-
standing of the purpose and expectations for implementing the process.

Training on the agency’s non-concurrence process is not provided in a medium that
is routinely available to all staff when they need it. Without precise guidance and
timely training, the non-concurrence process will continue to be inconsistently imple-
mented and staff will perceive the process as ineffective and inefficient. Furthermore,
some staff are hesitant to raise differing views through the agency’s non-concurrence
process because they perceive a negative stigma attached to the process.

Non-Concurrence Operating Experience Is Not Routinely or Comprehensively
Captured or Reviewed

MD 10.158 was implemented as interim guidance in November 2006 with the
intention that the agency gain operating experience in order to make informed
revisions to the directive prior to its final issuance. According to management, a
prolonged interim status would allow operating experience to be gained, which,
in turn, would be used to make informed revisions to the management directive.
Program management best practices include strategies for routinely reviewing
and capturing operating experience. However, because the non-concurrence
process was implemented by design without a requirement to conduct regular
program reviews, operating experience is not being formally captured or
reviewed. As a result, it would be difficult for program management to perform
a comprehensive assessment of the non-concurrence process and determine
what revisions are needed to improve MD 10.158. Furthermore, the agency’s
knowledge management initiative is negatively impacted when Forms 757,
“Non-Concurrence Process,”3 which are key decisionmaking documents, are
inconsistently tracked, profiled, and retained.

(Addresses Management and Performance Challenge # 2)


3
     RC Form 757 is a key decisionmaking document specific to the agency’s non-concurrence
    N
    process that provides a forum for the non-concurring individual, select document contributors,
    and management to respectively document and address concerns regarding a draft document.



                                                                           October 1, 2010–March 31, 2011   13
                       Independent Evaluation of NRC’s Implementation of the
                       Federal Information Security Management Act for Fiscal
                       Year 2010
                       OIG Strategic Goal: Security
                       On December 17, 2002, the President signed the E-Government Act of 2002,
                       which included the Federal Information Security Management Act (FISMA) of
                       2002.4 FISMA outlines the information security management requirements for
                       agencies, which include an annual independent evaluation of an agency’s
                       information security program5 and practices to determine their effectiveness.
                       This evaluation must include testing the effectiveness of information security
                       policies, procedures, and practices for a representative subset of the agency’s
                       information systems. FISMA requires the annual evaluation to be performed by
                       the IG or by an independent external auditor. OMB memorandum M-10-15,
                       FY 2010 Reporting Instructions for the Federal Information Security
                       Management Act and Agency Privacy Management, dated April 21, 2010,
                       requires the agency’s OIG to report their responses to OMB’s annual FISMA
                       reporting questions for OIGs via an automated collection tool.

                       The objective of this review was to perform an independent evaluation of the
                       NRC’s implementation of FISMA for FY 2010.

                       As of completion of fieldwork, NRC had 25 operational systems that fall under
                       FISMA reporting requirements.6 Of the 25, 8 are general support systems,7 and
                       17 are major applications.8 NRC had three systems operated by a contractor
                       or other organization on behalf of the agency (one major application and two
                       general support systems).




                       4
                           The Federal Information Security Management Act of 2002 was enacted on December 17, 2002,
                            as part of the E-Government Act of 2002 (Public Law 107-347) and replaces the E-Government
                            Information Security Reform Act, which expired in November 2002.
                       5
                           For the purposes of FISMA, the agency uses the term “information system security program.”
                       6
                           NRC also has a number of major applications and general support systems currently in
                            development. For FISMA reporting purposes, only operational systems are considered.
                       7
                           A general support system is an interconnected set of information resources under the same direct
                            management control that share common functionality. Typical general support systems are local
                            and wide area networks, servers, and data processing centers.
                       8
                           A major application is a computerized information system or application that requires special
                            attention to security because of the risk and magnitude of harm that would result from the loss,
                            misuse, or unauthorized access to or modification of the information in the application.




14   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
                                                   Total Number of Agency and Contractor Systems
                                                               and Numbers Reviewed
                                                           by FIBS 199 System Impact Level
Evaluation Results:
Program Enhancements and
Improvements

Over the past 8 years, NRC has continued
to make improvements to its information
system security program and continues to
make progress in implementing the recom-                                                  Source: OIG Data
mendations resulting from previous FISMA evaluations.
The agency has accomplished the following since the FY 2009 FISMA
independent evaluation:

•	   The agency continued to make significant progress in certifying and accrediting
     its systems. For the first time since 2001, when reporting on certification and
     accreditation began under Government Information Security Reform Act, all
     NRC operational systems, including all contractor systems for which NRC has
     direct oversight, have a current certification and accreditation. In FY 2010,
     the agency completed certification and accreditation of three existing agency
     systems and two new systems, and reaccredited four agency systems. As of
     the completion of fieldwork for FY 2010, all 25 operational NRC information
     systems and all 3 systems used or operated by a contractor or other organiza-
     tion on behalf of the agency had a current certification and accreditation.

•	   The agency completed or updated security plans for all of the agency’s 25
     operational systems and for all 3 contractor systems.

•	   The agency completed annual security control testing for all agency systems
     and for all contractor systems.

•	   The agency completed annual contingency plan testing for all but one agency
     system and for all contractor systems, including updating the contingency plans.

•	   The agency issued several new Computer Security Office processes including the
     NRC Agency-wide Continuous Monitoring Program, the NRC Security Impact
     Assessment Process, and the NRC Plan of Action and Milestones (POA&M)
     Process.

Program Weakness

While the agency has continued to make improvements in its information system
security program and has made progress in implementing the recommendations
resulting from previous FISMA evaluations, the independent evaluation identi-
fied one information system security program weakness–—a repeat finding from
several previous independent evaluations: the agency’s POA&M program still needs
improvement.

(Addresses Management and Performance Challenge # 5)



                                                             October 1, 2010–March 31, 2011           15
                       Results of the Audit of the Nuclear Regulatory Commission’s
                       Financial Statements for Fiscal Years 2010 and 2009
                       OIG Strategic Goal: Corporate Management
                       The Chief Financial Officers Act of 1990, as amended, requires the Inspector
                       General or an independent external auditor, as determined by the Inspector
                       General, to annually audit NRC’s financial statements to determine whether
                       the agency’s financial statements are free of material misstatement. The audit
                       includes examining, on a test basis, evidence supporting the amounts and
                       disclosures in the financial statements. It also includes assessing the accounting
                       principles used and significant estimates made by management as well as
                       evaluating the overall financial statement presentation.

                       In addition, the audit evaluated the effectiveness of internal controls over
                       financial reporting and the agency’s compliance with laws and regulations.

                       Audit Results:
                       Financial Statements
                       The auditors expressed an unqualified opinion on the agency’s FY 2010 and 2009
                       financial statements.

                       Internal Controls
                       The auditors expressed an unqualified opinion on the agency’s internal controls.

                       Compliance with Laws and Regulations
                       The auditors found no reportable instances of noncompliance with laws and
                       regulations.

                       (Addresses Management and Performance Challenge #6)



                       Audit of NRC’s Implementation of 10 CFR Part 21,
                       Reporting of Defects and Noncompliance
                       OIG Strategic Goal: Safety
                       NRC endeavors to protect the public health and safety and the environment
                       through the regulation of the 104 operating nuclear power plants in the United
                       States. The Energy Reorganization Act of 1974, as amended, Section 206,
                       Noncompliance,9 provides the statutory basis for NRC guidance and regulations
                       that pertain to reporting component defects10 in operating reactors. Specifically,
                       Section 206 requires licensees that operate nuclear power plants to notify NRC



                        9
                            For the purposes of this report, Energy Reorganization Act of 1974, as amended, Section 206,
                             Noncompliance is referred to as Section 206.




16   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
                                                                                              Defect Reporting vs.
                                                                                           Event Reporting Differences
of defects in basic components11 that could cause a
substantial safety hazard.12

NRC uses Title 10, CFR, Part 21, Reporting of Defects and
Noncompliance (Part 21) to implement the provisions of
Section 206. Part 21 requires that licensees inform NRC if
they obtain information that indicates that basic compo-
nents fail to comply with regulatory requirements relating
to substantial safety hazards or contain defects that could
create a substantial safety hazard. NRC revised Part 21 in
1991. Among other things, the revision was intended to                             Source: OIG analysis of NRC Data

reduce duplicative licensee reporting require-
ments, and allow for reporting of defects              Reports from Nuclear Power Plants, 1998-2009
under NRC event reporting regulations.
These NRC event reporting regulations are
contained in Title 10, Code of Federal Regu-
lations, Part 50.72 and Part 50.73 (Part 50
Sections 72/73).

There are differences between Part 21 and
Part 50 Sections 72/73 reporting require-
ments. One difference is that Part 21 concerns
itself with component defect reporting,
whereas Part 50 Sections 72/73 describe event                                      Source: OIG analysis of NRC Data

reporting. Consequently, the thresholds for reporting a component defect under
Part 21 are different than those for Part 50 Sections 72/73. Another difference is
that Part 21 defect reporting requires an evaluation and report if the defect could
cause a loss of safety function, whereas Part 50 Sections 72/73 events require
reporting of only actual losses of safety function. In addition, Part 21 defect
reporting requirements include individual component failures if the failures are
caused by a defect. Part 50 Sections 72/73 would not require reporting of an
individual component failure unless the failure caused a loss of safety function.

To illustrate the difference, two nuclear power plants could experience the same
basic component failure due to a defect that did not cause an event. Some
licensees interpret this as reportable under Part 21, whereas others do not, since


10 
     A defect is a deviation in a basic component delivered to a purchaser for use in operating nuclear
     power plants if, on the basis of an evaluation, the deviation could create a substantial safety
     hazard.
11
      basic component is a structure, system, or component that assures the integrity of the reactor
     A
     coolant pressure boundary; the capability to shut down the reactor and maintain it in a safe
     shutdown condition; or the capability to prevent or mitigate the consequences of accidents. It is,
     essentially, a safety-related component.
12
      substantial safety hazard is the loss of safety function to the extent that there is a major reduc-
     A
     tion in the degree of protection provided to public health and safety. Safety functions are neces-
     sary to ensure the integrity of the reactor coolant pressure boundary, the capability to shut down
     the reactor and maintain it in a safe shutdown condition, or the capability to prevent or mitigate
     the consequences of accidents that could result in certain potential offsite exposures.



                                                                               October 1, 2010–March 31, 2011            17
                       an event did not occur based on Part 50 Sections 72/73. However, Section 206
                       (which provides the statutory basis for Part 21) requires reporting of component
                       defects that could cause a loss of safety function as well as those that did cause
                       an actual loss of safety function.13

                       The audit objective was to determine if NRC’s implementation of Federal
                       regulations requiring reactor licensees to report defects contained in installed
                       equipment is meeting the intent of the Energy Reorganization Act of 1974, as
                       amended, Section 206, Noncompliance.

                       Audit Results:
                       NRC staff has initiated action to better align NRC’s defect reporting guidance
                       with Section 206 of the Energy Reorganization Act. However, NRC will need
                       to take further action so that NRC’s implementation of Part 21 fully meets the
                       intent of Section 206.

                       Despite Section 206 requirements for licensees that operate nuclear power plants
                       to notify NRC of defects in basic components that could cause a substantial
                       safety hazard, NRC staff have noted Part 21 reporting issues, and OIG analysis of
                       industry data indicate that there are apparent unreported Part 21 defects. For
                       example, an NRC staff analysis of Part 50 Sections 72/73 event reports of events
                       with potential Part 21 implications during the period December 2009 through
                       September 2010 identified 24 instances of events that had not been reported
                       under Part 21 despite implications that such reporting may have been warranted.
                       OIG independently analyzed Part 50 Sections 72/73 event reports and found 11
                       that contained apparent Part 21 reportable defects where the licensee had not
                       indicated that it conducted a Part 21 evaluation or provided a Part 21 report.

                       These reporting issues exist because NRC regulations and guidance for imple-
                       menting Section 206 are contradictory and unclear, and the NRC Baseline Inspec-
                       tion Program does not include requirements to inspect licensee reporting of Part
                       21 defects. Incomplete implementation of Section 206 could reduce the margin
                       of safety for operating nuclear power reactors as NRC may remain unaware of
                       component failures that have resulted from manufacturing defects. Unless NRC
                       takes action to fully implement Section 206, staff and stakeholders may not be
                       notified of component defects. Additionally, NRC inspectors face difficulties in
                       enforcing defect reporting given the lack of clarity in Part 21 and related guidance.

                       (Addresses Management and Performance Challenges #1 and #3)



                       13
                             art 50 Sections 72/73 require power reactor licensees to notify NRC of any event or condition
                            P
                            that at the time of discovery could have prevented the fulfillment of the safety function of struc-
                            tures or systems that are needed to (A) shut down the reactor and maintain it in a safe shut-
                            down condition, (B) remove residual heat, (C) control the release of radioactive material, or (D)
                            mitigate the consequences of an accident. Furthermore, Part 50 Sections 72/73 state that events
                            required to be reported under Part 50 Sections 72/73 may include one or more procedural errors;
                            equipment failures; and/or discovery of design, analysis, fabrication, construction, and/or proce-
                            dural inadequacies. However, individual component failures need not be reported under Part
                            50 Sections 72/73 if redundant equipment in the same system was operable and available to
                            perform the required safety function.



18   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
Audit of NRC’s Implementation of HSPD-12 Phase 2
OIG Strategic Goal: Security
Homeland Security Presidential Directive 12 (HSPD-12) is a Presidential
directive issued in August 2004. HSPD-12 states that it is national policy to
“enhance security, increase E-Government efficiency, reduce identity fraud, and
protect personal privacy” by establishing common identification standards for
all Federal Government employees and contractors.14 Further, HSPD-12 directs
executive branch agencies to use standardized identification to gain physical
access to Federal facilities and logical access to Federal information systems. As
a Federal executive branch agency,15 NRC is required to comply with HSPD-12
requirements.

OMB is responsible for issuing implementation guidance and ensuring Federal
agencies’ compliance with this guidance. OMB is also responsible for ensuring
agency compliance with technical standards issued by the Secretary of
Commerce. The National Institute of Standards and Technology—an organiza-
tion within the Department of Commerce—established basic technical standards
in Federal Information Processing Standards Publication 201 (FIPS 201).16

FIPS 201 prescribes standards for verifying the identities of Federal employees
and contractors,17 issuing identification cards known as Personal Identity
Verification (PIV) cards,18 and managing data systems to support use of PIV cards.

Use of PIV cards is a basic element of a broader Federal Government initiative
called Identity, Credential, and Access Management (ICAM), which aims to carry
out specific provisions as well as the full intent of HSPD-12. ICAM programs
have two main areas of operations: physical access control systems (PACS), which
provide physical security at Federal facilities, and logical access control systems
(LACS), which address the security of Federal computer networks.

NRC’s Office of Administration (ADM) has primary responsibility for PACS
implementation, including installation and maintenance of PIV card readers
that control access at doors and other entry points at NRC facilities. At the
end of this audit, NRC had completed installation of PIV card readers and the
supporting data system within headquarters buildings. However, ADM staff told
auditors that PACS deployment at NRC regional offices was ongoing and would
likely continue through the first half of calendar year 2011.
14
      omeland Security Presidential Directive 12, Policy for a Common Identification Standard for
     H
     Federal Employees and Contractors, August 27, 2004.
15
     Title 5 U.S. Code §105.
16
      ederal Information Processing Standards Publication 201-1, Personal Identity Verification
     F
     (PIV) of Federal Employees and Contractors, National Institute of Standards and Technology,
     March 2006.
17
     FIPS 201 refers to this process as identity proofing.
18
     S pecifically, FIPS 201 describes PIV card elements, system interfaces, and security controls
      required to securely store, process, and retrieve identity credentials from the PIV card. Physical
      card characteristics, storage media, and data elements that make up identity credentials are
      specified in this standard.


                                                                               October 1, 2010–March 31, 2011   19
     HSPD-12 Badge and reader               NRC’s Office of Information Services (OIS) provides information
                                            technology support for PACS, and has primary responsibility for
                                            forthcoming efforts to implement LACS at employees’ computer
                                            workstations. To implement LACS, NRC will equip employee
                                            workstations with PIV card readers, and the cards will authenti-
                                            cate users to NRC’s network in lieu of multiple currently required
                                            application-specific passwords. OIS has started a pilot LACS
                                            program and expects to begin implementing the technology
                                            agencywide by the end of calendar year 2011.19

                                            The audit objective was to assess whether NRC has effectively
Source: NRC                                 implemented its ICAM programs.

                         Audit Results:	
                         NRC completed implementation of the PACS portion of its ICAM program at
                         headquarters facilities during calendar year 2010, and expects to conclude this
                         work at regional offices during the first half of calendar year 2011. All NRC staff
                         and contractors eligible for the new PIV identification cards required by HSPD-12
                         have obtained these cards, and NRC continues to integrate PIV card technology
                         with physical security upgrades at its facilities. Further, NRC has begun piloting
                         the use of LACS at employees’ computer workstations to enhance network
                         security and simplify the log-in process.

                         Based on NRC’s experience in transitioning to the new PACS technology, OIG
                         identified opportunities to facilitate the NRC’s LACS implementation through
                         improved employee outreach and training. For example, NRC conducted
                         limited outreach activities and no formal user training in preparation for PACS
                         implementation. While this had relatively minor effects on employee attitudes
                         toward and understanding of PACS use, NRC’s forthcoming LACS implementa-
                         tion will significantly impact policies and procedures for accessing NRC computer
                         networks. Consequently, NRC employees must have a clear understanding of
                         these policies and procedures to avoid disruptions that could adversely affect
                         employee productivity.

                         (Addresses Management and Performance Challenges #5)



                         Inspector General’s Assessment of the Most Serious
                         Management and Performance Challenges Facing NRC
                         OIG Strategic Goal: Corporate Management
                         The Reports Consolidation Act of 2000 requires the Inspector General (IG) of
                         each Federal agency to summarize annually what he or she considers to be the
                         most serious management and performance challenges facing the agency and to
                         assess the agency’s progress in addressing those challenges.

                         19
                               wo NRC computer applications—the National Source Tracking System and the Safeguards
                              T
                              Information Local Area Network and Electronic Safe—already employ LACS technology.



20     N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
In accordance with the act, the IG at the NRC updated what he considered to be the
most serious management and performance challenges facing NRC as of October 1,
2010. The IG evaluated the overall work of the OIG, the OIG staff’s general knowl-
edge of agency operations, and other relevant information to develop and update
his list of management and performance challenges. As part of the evaluation,
OIG staff sought input from NRC’s Chairman, Commissioners, and management to
obtain their views on what challenges the agency is facing and what efforts the
agency has taken to address previously identified management challenges.

Audit Results:
The IG identified seven challenges that he considered the most serious management
and performance challenges facing NRC as of October 1, 2010. The challenges iden-
tify critical areas or difficult tasks that warrant high-level management attention.

The 2010 list of challenges reflects one change from the 2009 list. Prior Challenge 6,
Administration of all aspects of financial management, was reworded to include a
reference to procurement. The new wording, Administration of all aspects of
financial management and procurement, is intended to reflect the overarching
responsibility that NRC has to manage and exercise stewardship over its resources.

The following chart provides an overview of the seven most serious
management and performance challenges as of October 1, 2010.

              Most Serious Management and Performance Challenges
                   Facing the Nuclear Regulatory Commission *
                               as of October 1, 2010
                      (as identified by the Inspector General)

  Challenge 1	 Protection of nuclear material used for civilian purposes.

  Challenge 2	Managing information to balance security with openness and
               accountability.

  Challenge 3	Ability to modify regulatory processes to meet a changing
               environment, to include the licensing of new nuclear facilities.

  Challenge 4	 Oversight of radiological waste.

  Challenge 5	Implementation of information technology and information
               security measures.

  Challenge 6	Administration of all aspects of financial management and
               procurement.

  Challenge 7	 Managing human capital.

  *The most serious management and performance challenges are not ranked
    in any order of importance.

(Addresses All Management and Performance Challenges)



                                                                October 1, 2010–March 31, 2011   21
                       AUD I T S I N P RO G R E S S
                       Audit of the NRC’s Shared Drives
                       OIG Strategic Goal: Security
                       NRC employees save documents on various drives on the agency’s networks.
                       Most drives limit access to individual employees, offices, or other organizational
                       units. However, some drives on the network allow NRC employees to read or
                       edit documents stored on shared drives regardless of employees’ organizational
                       affiliations or need to access the documents. These shared drives facilitate
                       collaboration among NRC employees by enabling them to exchange information
                       across organizational lines.

                       NRC directs that shared drives be used to process non-sensitive information only.
                       Sensitive non-safeguards information requires a higher level of control than is
                       easily possible on shared drives; consequently, sensitive non-safeguards
                       information is not supposed to be processed on shared drives.

                       Following recommendations from a 2006 OIG audit, NRC scans networks on
                       an annual basis to determine whether one type of sensitive non-safeguards
                       information – personally identifiable information, or “PII”— is stored on agency
                       drives. If the automated scans detect documents containing PII on the agency’s
                       network, NRC contacts document owners, who are then responsible for
                       determining the proper solution for managing the documents in question. In
                       some cases, the documents may be expunged; in other cases, the documents
                       may continue to be stored on NRC’s network.

                       Despite NRC’s procedures for PII scanning, and despite periodic announcements
                       reminding NRC employees of their responsibilities for safeguarding PII and
                       other forms of sensitive non-safeguards information, NRC staff have expressed
                       concerns to OIG that agency policies and procedures are not consistently
                       implemented.

                       The audit objective is to assess whether NRC effectively safeguards personally
                       identifiable information and other sensitive information on the agency’s
                       shared drives.

                       (Addresses Management and Performance Challenge #5)




22   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
Evaluation of the Contract Award Process
OIG Strategic Goal: Corporate Management
It is NRC’s policy that acquisitions of supplies and services support the
agency’s mission; are planned, awarded, and administered efficiently and
effectively; and are accomplished in accordance with applicable Federal statutes
and procurement regulations. NRC acquisitions must adhere to the Federal
Acquisition Regulation (FAR) and the NRC Acquisition Regulation (NRCAR). The
Federal acquisition process is intended, among other objectives, to satisfy the
customer in terms of cost, quality, and timeliness of the delivered product or
service. The vision for the Federal acquisition process is to deliver on a timely
basis the best value product or service to the customer, while maintaining the
public’s trust and fulfilling public policy objectives.

The Division of Contracts obligated approximately $17.2 million and $6.6 million
during FY 2009 and FY 2010 (as of June 25, 2010), respectively, for new contract
awards.

The evaluation objectives are to obtain an understanding of the NRC’s contract
award process and perform sufficient work to report on the agency’s (1) compli-
ance with applicable requirements (e.g., FAR and NRCAR requirements), and
(2) identify any opportunities to improve the efficiency and effectiveness of the
contract award process to include timeliness and internal controls.

(Addresses Management and Performance Challenge #6)



Audit of NRC’s Purchase Card Program
OIG Strategic Goal: Corporate Management
NRC employees use purchase cards for purchases of supplies and services that do
not exceed $3,000. During FY 2009, there were approximately 10,000 purchase
card transactions conducted by 124 NRC employees that totaled more than
$6,000,000.

NRC’s Purchase Card Program guidance states the procedures that need to be
followed for the usage of purchase cards by NRC employees and the responsibili-
ties of the staff managing the program.

Recent audits conducted by other Federal agencies on their respective purchase
card programs have found significant internal control deficiencies that have led
to the improper usage of Government issued purchase cards.

The audit objective is to determine whether NRC has established and implemented
an effective system of internal control over the use of Federal purchase cards.

(Addresses Management and Performance Challenge #6)



                                                             October 1, 2010–March 31, 2011   23
                       Audit of the NRC’s iLearn Learning Management System
                       OIG Strategic Goal: Corporate Management
                       iLearn is NRC’s learning management system that was developed to serve as the
                       central point for all training activities across the agency and to provide detailed
                       training information for all NRC employees.

                       The system was developed by a contractor under an interagency agreement with
                       the Office of Personnel Management. Its purpose is to provide access to online
                       courses from courseware libraries as well as custom courses developed by NRC,
                       allow staff to register for courses and submit training requests online, complete
                       training evaluations, and generate training reports.

                       Since its April 2008 deployment, the system has experienced problems. For
                       example, an attempt was made to move all agency online training from NRC’s
                       server onto iLearn. This would permit employees to launch all online training
                       from one application and have course completion information automatically
                       added to their learning history. However, many of the online training courses
                       are not working correctly due to technical problems that cause them to launch
                       incorrectly or not launch at all. Consequently, many of the online courses were
                       removed from iLearn and placed back on the NRC server.

                       The audit objective is to determine the effectiveness of the iLearn Learning
                       Management System to meet the agency’s current and future training needs.

                       (Addresses Management and Performance Challenge #7)



                       Audit of NRC’s Shuttle Service
                       OIG Strategic Goal: Corporate Management
                       The ongoing expansion of the NRC headquarters White Flint Complex has required
                       that some employees be temporarily relocated to several buildings outside of the
                       main complex. Relocated employees are currently working from the Gateway
                       Building in Bethesda, and the Executive Boulevard, Twinbrook, and Church
                       Street Buildings in Rockville. NRC has implemented a shuttle service to transport
                       employees and contractors between the White Flint Complex and the tempo-
                       rary locations to conduct official agency business. The temporary locations were
                       intended to be located within walking distance of public transportation.

                       The agency has a 2.5-year, $2.7-million contract with Blue Ridge Limousine and
                       Tour Service, Inc., for shuttle services. The shuttle service currently operates six
                       buses: one bus runs round trip between the White Flint Complex and the




24   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
Executive Boulevard Building 35 times per day; two buses run round trip
between the White Flint Complex and Church Street 34 times per day; one bus
runs round trip between the White Flint Complex and Twinbrook 23 times per
day; and two buses run between the White Flint Complex and the Gateway
building 22 times per day. There are no buses that run from one interim
location to another.

The audit objective is to determine the effectiveness, efficiency, and economy of
the shuttle services versus public transportation.

(Addresses Management and Performance Challenge #6)



Audit of NRC’s FY 2011 Financial Statements
OIG Strategic Goal: Corporate Management
Under the Chief Financial Officers Act and the E-Government Management
and Reform Act, the OIG is required to audit the financial statements of the
NRC. The report on the audit of the agency’s financial statements is due on
November 15, 2011. In addition, OIG will issue reports on:

•	   Special Purpose Financial Statements.

•	   Implementation of the Federal Managers’ Financial Integrity Act.

•	   Condensed Financial Statements.

The audit objectives are to:

•	   Express opinions on the agency’s financial statements and internal controls.

•	   Review compliance with applicable laws and regulations.

•	   Review the controls in the NRC’s computer systems that are significant to the
     financial statements.

•	   Assess the agency’s compliance with Office of Management and Budget
     Circular A-123, Revised, Management’s Responsibility for Internal Control.

(Addresses Management and Performance Challenge #6)




                                                              October 1, 2010–March 31, 2011   25
                       Audit of NRC’s Management of Licensee Commitments
                       OIG Strategic Goal: Safety	
                       Nuclear power plant and materials licensees make commitments to NRC to
                       perform certain functions to gain NRC’s approval on technical issues with regard
                       to a licensing action. Commitments may or may not be legally binding require-
                       ments, depending on how they are developed and agreed upon by NRC and
                       the licensees. The type of commitment may dictate the enforcement options
                       available to NRC. There are widespread opinions among agency officials as to
                       whether commitments are enforceable, can be voluntarily withdrawn by the
                       licensee, and are important for tracking.

                       The audit objective is to determine how NRC manages licensee commitments,
                       including tracking, auditing, trending, monitoring, and enforcing.

                       (Addresses Management and Performance Challenge #3)



                       Audit of NRC’s Oversight of Master Materials Licensees
                       OIG Strategic Goal: Safety
                       The Office of Federal and State Materials and Environmental Management
                       Programs has, among other activities, the responsibility to provide program
                       oversight for the master materials license program. Master materials licenses are
                       issued by NRC to provide designated organizations with regulatory authority for
                       the receipt, possession, distribution, use, transportation, transfer, and disposal
                       of radioactive material. As of August 2010, there were three master materials
                       licensees: the Departments of Air Force, Navy, and Veterans Affairs (VA).

                       The public and Government officials have recently questioned the effectiveness
                       of NRC oversight in the aftermath of the reported misadministration of treat-
                       ments to 97 patients at a VA hospital in Pennsylvania. Congressional and public
                       interest remains high where nuclear materials are involved and there remains
                       public concern with respect to the use of radioactive material at other VA
                       hospitals and other organizations to which NRC has delegated master materials
                       licenses.

                       The audit objective is to determine the extent to which NRC is providing
                       effective oversight of master materials licensees.

                       (Addresses Management and Performance Challenge #1)




26   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
Audit of NRC’s Oversight of Independent Spent Fuel
Storage Installations Safety
OIG Strategic Goal: Safety
The need for alternative spent fuel storage began to grow in the late 1970s/
early 1980s as spent fuel pools at many nuclear reactors began to fill up with
stored fuel. NRC authorizes licensees to store spent nuclear fuel at independent
spent fuel storage installations (ISFSIs), generally consisting of casks on a concrete
pad located onsite. A site-specific ISFSI is licensed for 20 years from the date of
approval.

Thus, until a high-level waste repository is made available, spent nuclear fuel at
ISFSIs across the Nation will continue to accumulate.

The audit objective is to determine if NRC has the requisite processes in place for
reviewing ISFSIs safety.

(Addresses Management and Performance Challenge #4)



Audit of NRC’s Oversight of Independent Spent Fuel
Storage Installations Security
OIG Strategic Goal: Security
An ISFSI is a storage facility for spent nuclear fuel. Under the Atomic Energy
Act of 1954, as amended, NRC has the responsibility to establish rules, regula-
tions, orders, and policies to ensure that source material, byproduct material,
and special nuclear material are stored in a manner to adequately protect public
health and safety, the common defense and security, and the environment.

Following the terrorist events of September 11, 2001, NRC issued security orders
(in October 2002) to all ISFSI licensees to ensure that a consistent overall protec-
tive strategy was in place. On December 18, 2007, the Commission directed Office
of Nuclear Security and Incident Response (NSIR) staff to develop risk-informed
and performance-based regulations to enhance security requirements. The
Commission also directed NSIR staff to undertake a rulemaking to update the
security requirements. NRC staff have received public comment on the proposed
security rules. Public stakeholders have raised concerns that the proposed rules do
not sufficiently emphasize anti-terrorism capabilities.

The audit objective is to determine the adequacy of NRC’s oversight of ISFSI
security.

(Addresses Management and Performance Challenge #4)




                                                               October 1, 2010–March 31, 2011   27
I n v e s ti g ati o n s
                       During this reporting period, OIG received 123 allegations, initiated 32
                       investigations, and closed 12 cases. In addition, the OIG made 25 referrals to
                       NRC management and six to the Department of Justice.

                       I N VE ST I G AT IV E CA S E S UMMAR IE S
                       NRC Actions Concerning Licensee Statements Regarding
                       Adequacy of Decommissioning Trust Fund Balances
                       OIG Strategic Goal: Corporate Management
                       OIG conducted an investigation based on an allegation submitted by a private
                       citizen to NRC under Title 10 Code of Federal Regulations (CFR) Section 2.206,
                       which permits any person to file a petition requesting that the NRC Commission
                       take enforcement-related action, i.e., to modify, suspend, or revoke a license
                       or to take other appropriate action. The 2.206 petition must be in writing and
                       provide the grounds for taking the proposed action.

                       According to the petition filed by the private citizen, NRC knowingly allowed
                       Entergy to lie about the amount of money in its decommissioning trust fund
                       for three of its utilities, Vermont Yankee, River Bend, and Indian Point nuclear
                       power plants. The citizen also alleged that he was personally lied to by NRC
                       staff in a letter dated December 17, 2009, which stated, “only the decommis-
                       sioning trust funds for Entergy’s Vermont Yankee and River Bend nuclear power
                       plants do not currently meet the funding levels of 10 CFR 50.75.” The person
                       alleged that Indian Point Unit 2 also had a funding shortfall; thus, the letter he
                       received was inaccurate.

                       Title 10 CFR 50.75 requires a licensee to provide every 2 years a report on the
                       state of its decommissioning trust fund. The purpose of the fund is to provide
                       reasonable assurance that a licensee has sufficient funds to pay for the cleanup
                       and removal of all nuclear and radiological material from the site. Regardless,
                       of the amount of money in the fund, a licensee is considered compliant as long
                       as the report is filed.

                       OIG found no evidence to substantiate the claim that Entergy lied about the
                       state of its decommissioning trust fund, and no evidence that NRC staff know-
                       ingly allowed the company to lie. OIG also found that NRC’s letter, dated
                       December 17, 2009, accurately reflected the state of Entergy’s decommissioning
                       trust fund.

                       (Addresses Management and Performance Challenge #7)




28   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
National Fire Protection Association Standard 805
Concerns at Shearon Harris Nuclear Power Plant
OIG Strategic Goal: Safety
OIG conducted an investigation based on an allegation
from several stakeholders. The stakeholders alleged
that in implementing a pilot program concerning a
performance-based regulatory standard for fire protec-
tion in accordance with 10 CFR 50.48(c) at Shearon Harris
nuclear power plant the NRC is directing licensees to use
fire models that have not been validated and verified as
required by National Fire Protection Association (NFPA)
Standard 805. They further alleged that a former NRC
                                                                        Shearon Harris Nuclear Power Plant.
employee was wrongfully terminated for speaking out                                  Photo Courtesy Progress Energy
against the performance-based standard for fire protection.

10 CFR 50.48(c) authorizes licensees to use NFPA 805 as a risk-informed, perfor-
mance-based fire protection program as an alternative to the prescriptive
regulatory standard known as Appendix R, referenced in 10 CFR.48(b). NFPA
specifies the minimum fire protection requirements during all phases of plant
operation, including shutdown, degraded conditions, and decommissioning.

OIG reviewed NUREG-1824, Verification and Validation of Selected Fire Models
for Nuclear Power Plant Applications, and found that, in conjunction with the
Electric Power Research Institute, the NRC had conducted research that vali-
dated and verified five separate fire models which licensees may use to imple-
ment NFPA 805 in nuclear power plants. Although the allegers claimed that
NUREG-1824 states that the models had been found unacceptable for use in
nuclear power plants, a review of Section 3.1 of NUREG-1824, revealed that all
five models were found acceptable for use in nuclear power plant applications.
In addition, licensees are not required to use these specific fire models, but may
use any model that has been validated and verified and appropriately applied
within their limitations. OIG also found that the NRC employee was terminated
for reasons not related to his opinions regarding fire protection regulation.

(Addresses Management and Performance Challenge #3)




                                                             October 1, 2010–March 31, 2011                    29
                       Improper Billing on the Safeguards Information Local
                       Area Network Contract And Contract Mismanagement
                       OIG Strategic Goal: Corporate Management
                       OIG conducted an investigation based on an allegation by an NRC subcon-
                       tractor, Danastar Professional Services (Danastar), that (a) the NRC project
                       manager for two of NRC’s three Safeguards Information Local Area Network
                       and Electronic Safe System (SLES) contracts was requesting out-of-scope records
                       management work from one of the SLES contractors, (b) the NRC SLES project
                       manager directed contractor staff to enter inaccurate information into SLES
                       database fields, (c) two senior NRC managers were given SLES Smart cards
                       without completing the required paperwork and training, and (d) the NRC SLES
                       project manager had a personal relationship with the contractor CEO.

                       The SLES provides secure wireless access to NRC’s official recordkeeping system
                       for safeguards information. OIG learned that the two contracts include records
                       management work and that there is overlap between the two contracts but it is
                       performed for different purposes in accordance with contract requirements.

                       OIG did not substantiate contract mismanagement with regard to NRC’s SLES
                       contracts, or that the NRC SLES project manager directed that incorrect records
                       be entered into SLES. OIG found that the two senior managers were not given
                       a Smart card and that there was no inappropriate relationship between the
                       NRC SLES contract project manager and the contractor CEO.

                       (Addresses Management and Performance Challenge #6)




30   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
Possible Compromise of Government BlackBerry Devices
OIG Strategic Goal: Security
OIG conducted an investigation to deter-
mine whether two NRC BlackBerry devices
were compromised during an official
trip by two senior NRC staff members to
a foreign country. The two senior staff
members reported that they left their
BlackBerry devices unattended in their
hotel rooms for more than 8 hours during
their trip.

A forensic analysis by the NRC OIG Cyber
Crime Unit did not find any traces of
malicious software loaded on the BlackBerry mobile devices or any discrepan-       Photo Source: Shutterstock

cies in the security settings to indicate these devices were altered in any way.

(Addresses Management and Performance Challenge #5)




                                                             October 1, 2010–March 31, 2011              31
                                                                 Control room at nuclear power plant.   Photo NRC




32   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
      S u mma r y            of        O IG A c c o m p l i s h m e n t s
      October 1, 2010, through March 31, 2011



      INV ESTI G AT I VE STATI ST ICS
      Source of Allegations
                    NRC Employee                                                                  31

                 NRC Management                 4

        Other Government Agency                     5

                    General Public                                                                            37

           OIG Investigation/Audit                                11

                Regulated Industry                                     14

                       Anonymous                                                 20

                        Contractor      1

                                            Allegations resulting from Hotline calls: 50

                                                                               Total 123




      Disposition of Allegations

                              Total                                               123

             Closed Administratively                              51

      Referred for OIG Investigation                         32

Referred to NRC Management and Staff                    25

             Pending Review Action          6

         Correlated to Existing Case        6

              Referred to OIG Audit         1

                         Processing         2




                                                                        October 1, 2010–March 31, 2011   33
                       Status of Investigations
                       DOJ Acceptance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                       DOJ Referrals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6
                       DOJ Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                       DOJ Declinations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6
                       Sentencing .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                       NRC Administrative Actions:
                       	   Terminations and Resignations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  1
                       	   Suspensions and Demotions  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
                       	Counseling  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
                       	Recoveries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                       State Referrals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                       State Accepted  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                       PFCRA Referral  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                       PFCRA Acceptance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                       PFCRA Recovery .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0

                       Summary of Investigations
                       Classification of 	                                            	     Opened 	 Closed 	 Cases In
                       Investigations	                                           Carryover	  Cases	  Cases	 Progress

                       Bribery	                                                        0	  0	 0	  0
                       Conflict of Interest	                                           1	  0	 0	  1
                       External Fraud	                                                 5	  3	 2	  6
                       False Statements	                                               2	  0	 0	  2
                       Misuse of Government Property	                                  0	  0	 0	  0
                       Employee Misconduct 	                                          11	 22	 7	 26
                       Management Misconduct	                                          1	  1	 0	  3
                       Mishandling of Technical Allegations	                           0	  0	 0	  0
                       Whistleblower Reprisal	                                         0	  0	 0	  0
                       Miscellaneous	                                                  1	  3	 2	  2
                       Technical Allegations	                                          1	  1	 1	  1
                       Management Implication Report	                                  0	  0	 0	  0
                       Event Inquiries	                                                3	  0	 0	  3
                       Theft	                                                          0	 1	 0	1
                       	 	 Total Investigations	                                      25	                32	             12	             45

                       Other

                       Projects and Proactive Initiatives	                              0	               10	               0	              0




34   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
AUDIT L I ST I N G S
Internal Program Audit and Evaluation Reports
Date         Title                                               Audit Number
10/01/2010   Inspector General Assessment of the Most Serious     OIG-11-A-01
             Management and Performance Challenges Facing
             NRC

10/07/2010   Audit of NRC’s Non-Concurrence Process               OIG-11-A-02

11/09/2010   Independent Evaluation of NRC’s Implementation       OIG-11-A-03
             of the Federal Information Security Management
             Act for Fiscal Year 2010

11/09/2010   Results of the Audit of the United States Nuclear    OIG-11-A-04
             Regulatory Commission’s Financial Statements for
             Fiscal Years 2010 and 2009

11/16/2010   Independent Auditor’s Report on the U.S. Nuclear     OIG-11-A-05
             Regulatory Commission’s Special Purpose Financial
             Statements as of September 30, 2010 and 2009,
             and for Years Then Ended

02/04/2011   Transmittal of the Independent Auditor’s Report      OIG-11-A-06
             on the Condensed Financial Statements

02/14/2011   Memorandum Report: Review of NRC’s                   OIG-11-A-07
             Implementation of the Federal Managers’ Financial
             Integrity Act for Fiscal Year 2010

03/23/2011   Audit of NRC’s Implementation of 10 CFR Part 21,     OIG-11-A-08
             Reporting of Defects and Noncompliance

03/30/2011   Audit of NRC’s Implementation of HSPD-12 Phase 2     OIG-11-A-09




                                                           October 1, 2010–March 31, 2011   35
                                                                 Reactor containment area.   Photo NRC




36   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
A u d it R e s o l u ti o n A c ti v iti e s
TA BLE I
OIG Reports Containing Questioned Costs20
		                  Questioned	 Unsupported
	        Number of	    Costs	       Costs
Reports	  Reports	   (Dollars)	   (Dollars)

A.	       For which no management decision
          had been made by the commencement
          of the reporting period	                                    0	                      0	         0

B.	       Which were issued during the
          reporting period	                                           0	                      0	         0

	         Subtotal (A + B)	                                           0	 0	0

C.	       For which a management decision was
          made during the reporting period:

	         (i) 	 dollar value of disallowed costs	                     0	                      0	         0

	         (ii)	   dollar value of costs not disallowed	               0	                      0	         0

D.	       For which no management decision
          had been made by the end of the
          reporting period	                                           0	                      0	         0

E.	       For which no management decision was
          made within 6 months of issuance	                           0	                      0	         0




20
      uestioned costs are costs that are questioned by the OIG because of an alleged violation of a
     Q
     provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or
     document governing the expenditure of funds; a finding that, at the time of the audit, such costs
     are not supported by adequate documentation; or a finding that the expenditure of funds for the
     intended purpose is unnecessary or unreasonable.




                                                                             October 1, 2010–March 31, 2011   37
                     TA B LE I I
                     OIG Reports Issued with Recommendations
                     That Funds Be Put to Better Use21
                     	                                                                     Number of	           Dollar Value
                     Reports	                                                               Reports	             of Funds

                     A.	      For which no management decision	 0	 0
                              had been made by the commencement
                              of the reporting period			

                     B.	      Which were issued during the 	 0	                                                        0
                              reporting period		

                     C.	      For which a management decision was	
                              made during the reporting period:		

                     	         (i) 	 dollar value of recommendations	                           0	                     0
                              	      that were agreed to by management

                     	         (ii) 	 dollar value of recommendations 	                         0	                     0
                               	      that were not agreed to by management

                     D.	      For which no management decision had	                             0	                     0
                              been made by the end of the reporting
                              period

                     E.	      For which no management decision was	 0	 0
                              made within 6 months of issuance			
                              	




                     21
                         A “recommendation that funds be put to better use” is a recommendation by the OIG that funds
                           could be used more efficiently if NRC management took actions to implement and complete
                           the recommendation, including: reductions in outlays; deobligation of funds from programs
                           or operations; withdrawal of interest subsidy costs on loans or loan guarantees, insurance, or
                           bonds; costs not incurred by implementing recommended improvements related to the operations
                           of NRC, a contractor, or a grantee; avoidance of unnecessary expenditures noted in pre-award
                           reviews of contract or grant agreements; or any other savings which are specifically identified.




38   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
TA BLE I I I
Significant Recommendations Described in Previous
Semiannual Reports on Which Corrective Action Has
Not Been Completed
Date	         Report Title	                                                    Number

05/26/2003	    Audit of NRC’s Regulatory Oversight of Special 	                OIG-03-A-15		
	              Nuclear Materials

	Recommendation 1: Conduct periodic inspections to verify
  that material licensees comply with material control and
  accountability (MC&A) requirements, including, but not
  limited to, visual inspections of licensees’ special nuclear
   material (SNM) inventories and validation of reported
  information.

9/26/2008	Audit of NRC’s Enforcement Program	                                 OIG-08-A-17

	Recommendation 2: Define systematic data collection
  requirements for non-escalated enforcement actions.

               Recommendation 3: Develop and implement a quality
               assurance process that ensures that collected enforcement
               data is accurate and complete.




                                                                  October 1, 2010–March 31, 2011   39
               TA B LE I V
               Summary of Audit Reports Without Management Decision
               for More Than Six Months
               Date	              Report Title	                                                 Number
               9/28/10	           Audit of the Nuclear Regulatory Commission’s 	                OIG-10-A-20	
               	                  Vendor Inspection Program

               	                   ummary: OIG made nine recommendations to the Executive
                                  S
                                  Director for Operations (EDO) of which two are unresolved.

               	
                Recommendation 1: Recommended that the Executive Director
                for Operations develop a Vendor Inspection Program planning
                document that: (a) Articulates a clear purpose for the Vendor
                Inspection Program and (b) Establishes metrics to evaluate the
                success of the Vendor Inspection Program.

               	                   eason Unresolved: The NRC staff agreed with the essence of
                                  R
                                  Recommendation 1 and pointed to eight broad program objectives
                                  that are mentioned in an inspection manual. However, the purpose
                                  of an inspection manual is to guide inspections, not to set goals
                                  and metrics for a program. OIG believes that program-level metrics
                                  are better when co-located in a program planning document. In
                                  this way, Vendor Inspection Program stakeholders can observe the
                                  linkage between the program goals and objectives and the desired
                                  outcomes as measured by program-level metrics. As a result, this
                                  recommendation remains unresolved. OIG expects to receive an
                                  updated response from NRC by May 27, 2011.

               	
                Recommendation 9: Recommended that the Executive Director for
                Operations develop guidance that clarifies the requirements for
                vendors on how to approve accredited commercial-grade calibration
                laboratories for safety-related applications.

               	
                Reason Unresolved: NRC staff acknowledged that clear regula-
                tory guidance is necessary, but did not take steps to issue guidance
                clarifications. Instead, the staff plans to issue a Commission paper
                with suggestions to clarify the applicable regulations through a
                rulemaking; however, the process established to approve accredited
                commercial-grade calibration laboratories is entirely created by
                guidance documents and is an alternative to the practice outlined
                in regulation. Starting rulemaking with a Commission paper will
                not clarify the current guidance-based requirements for approving
                accredited commercial-grade calibration laboratories. As a result, this
                recommendation remains unresolved. OIG expects to receive
                an updated response from NRC by May 27, 2011.




40   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
A b b r e v iati o n s             and       Acronyms
ADAMS	     Agencywide Documents Access and Management System

ADM	       Office of Administration (NRC)

CFR	       Code of Federal Regulations

FAR	       Federal Acquisition Regulation

FIPS	      Federal Information Processing Standards

FISMA	     Federal Information Security Management Act

FSME	      Office of Federal and State Materials and Environmental Management Programs (NRC)

FY	        Fiscal Year

HSPD-12	   Homeland Security Presidential Directive 12

IAM	       Issue Area Monitor

ICAM	      Identity, Credential, and Access Management

IG	        Inspector General

ISFSI	     independent spent fuel storage installations

LACS	      logical access control systems

LEP	       limited English proficiency

MD	        Management Directive

NFPA	      National Fire Protection Association

NRC	       U.S. Nuclear Regulatory Commission

NRCAR	     NRC Acquisition Regulation

NSIR	      Office of Nuclear Security and Incident Response (NRC)

OGC	       Office of the General Counsel (NRC)

OIG	       Office of the Inspector General (NRC)

OIS	       Office of Information Services (NRC)

OMB	       Office of Management and Budget

PACS	      physical access control systems

PII	       personally identifiable information

PIV	       personal identity verification

POA&M	     Plan of Action and Milestones

VA	        Department of Veterans Affairs




                                                          October 1, 2010–March 31, 2011   41
R e p o r ti n g R e q u i r e m e n t s
                       The Inspector General Act of 1978, as amended (1988), specifies reporting
                       requirements for semiannual reports. This index cross-references those
                       requirements to the applicable pages where they are fulfilled in this report.


                       Citation	              Reporting Requirements	                              Page

                       Section 4(a)(2)	       Review of Legislation and Regulations	                   6-9

                       Section 5(a)(1) 	 Significant Problems, Abuses, and Deficiencies	    12-21, 28-31

                       Section 5(a)(2) 	 Recommendations for Corrective Action	                    12-21

                       Section 5(a)(3) 	 Prior Significant Recommendations Not Yet Completed	          39

                       Section 5(a)(4) 	 Matters Referred to Prosecutive Authorities	                  33

                       Section 5(a)(5) 	 Information or Assistance Refused	                        None

                       Section 5(a)(6) 	 Listing of Audit Reports	                                     34

                       Section 5(a)(7) 	 Summary of Significant Reports	                    12-21, 28-31

                       Section 5(a)(8) 	 Audit Reports — Questioned Costs	                             35

                       Section 5(a)(9) 	 Audit Reports — Funds Put to Better Use	                      36

                       Section 5(a)(10)	 Audit Reports Issued Before Commencement of the
                       	                 Reporting Period for Which No Management Decision
                       	                 Has Been Made	                                                40

                       Section 5(a)(11) Significant Revised Management Decisions	                  None

                       Section 5(a)(12) Significant Management Decisions With Which
                       	                 the OIG Disagreed	                                        None

                       Public Law 111-203, the Dodd-Frank Wall Street Reform and Consumer
                       Protection Act, requires IGs to include their peer review results as an
                       appendix to each Semiannual Report to Congress.

                       Section 989C	          Peer Review Information	                                 43




42   N R C O I G S e m i a nn u a l R e p or t t o C ongr e ss
Appendix
Peer Review Information

The OIG Audit and Investigative programs are peer reviewed every 3 years.



Audits

The NRC OIG Audit program was peer reviewed most recently by the U.S. Small
Business Administration Office of Inspector General. The peer review final
report, dated August 24, 2009, reflected that NRC OIG received a peer review
rating of pass. This is the highest rating possible based on the
available options of pass, pass with deficiencies, or fail.



Investigations

The NRC OIG Investigative program was peer reviewed most recently by
the U.S. Department of State Office of Inspector General. The peer review
final report, dated July 6, 2010, reflected that the NRC OIG is in compliance
with the quality standards established by the President’s Council on Integrity
and Efficiency/Executive Council on Integrity and Efficiency and the Attorney
General guidelines.




                                                             October 1, 2010–March 31, 2011   43
OIG VISION                                                           NRC OIG’s STRATEGIC GOALS
“We are agents of positive change striving for continuous            1. S
                                                                         trengthen NRC’s efforts to protect public health and safety
improvement in our agency’s management and program operations.”         and the environment.
                                                                     2. E nhance NRC’s efforts to increase security in response to an
                                                                        evolving threat environment.
NRC OIG MISSION
                                                                     3. I ncrease the economy, efficiency, and effectiveness with
NRC OIG’s mission is to (1) independently and objectively conduct       which NRC manages and exercises stewardship over its
and supervise audits and investigations relating to NRC’s programs      resources.
and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




Top Photo: Control Room. Photo by Louie Psihoyos
via Getty Images.

Bottom Photo: Cherenkov effect in the Reed
Research Reactor.

Center Photo: Pilgrim Nuclear Power Station
Photo courtesy of Entergy Nuclear.

Right Photo: Wolf Creek Nuclear Reactor
Photo courtesy of Wolf Creek Nuclear Operating Corp.
               REGU
           EAR     LA
         CL          T




   NU




                        OR
STATES




                          YC
                         OMMI S
 ED




                         SI
    IT




                         O
                    N
         UN




The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.

What should be reported:
• Contract and Procurement Irregularities       • Abuse of Authority
                                                                                               Semiannual Report                  to   C o n g r e ss
• Conflicts of Interest                         • Misuse of Government Credit Card             October 1, 2010 – March 31, 2011
• Theft and Misuse of Property                  • Time and Attendance Abuse
• Travel Fraud                                  • Misuse of Information Technology Resources
• Misconduct                                    • Program Mismanagement


Ways to Contact the OIG
                                  Call:
                                  OIG Hotline
                                  1-800-233-3497
                                  TDD: 1-800-270-2787
                                  7:00 a.m. – 4:00 p.m. (EST)
                                  After hours, please leave a message


                                  Submit:
                                  On-Line Form
                                  www.nrc.gov
                                  Click on Inspector General
                                  Click on OIG Hotline



                                  Write:
                                  U.S. Nuclear Regulatory Commission
                                  Office of the Inspector General
                                  Hotline Program, MS O5 E13
                                  11555 Rockville Pike
                                  Rockville, MD 20852-2738


NUREG-1415, Vol. 23, No. 2
April 2011
